<html>
<title> - MANAGEMENT OF THE WORKLIFE SERVICES CENTER AT THE LIBRARY OF CONGRESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 MANAGEMENT OF THE WORKLIFE SERVICES CENTER AT THE LIBRARY OF CONGRESS

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, JULY 29, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html






                  U.S. GOVERNMENT PRINTING OFFICE
52-607                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                           Professional Staff
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director

 
 MANAGEMENT OF THE WORKLIFE SERVICES CENTER AT THE LIBRARY OF CONGRESS

                              ----------                              


                        WEDNESDAY, JULY 29, 2009

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 11:09 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Capuano and Harper.
    Staff Present: Jamie Fleet, Staff Director; Khalil Abboud, 
Professional Staff; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Joe Wallace, 
Legislative Clerk; Mary Sue Englund, Office Manager for 
Representative Kevin McCarthy; and Caitlin Ryan, Minority 
Professional Staff.
    The Chairman. I would like to call the Committee on House 
Administration to order and welcome our guests here and thank 
you for being here. And we have Republican Members that are 
jammed up in Judiciary Committee, but hopefully will be popping 
in. And we are also joined by my dear colleague and friend Mike 
Capuano, which makes this a quorum, so we can get started.
    Good morning. We are convening here this morning to 
continue our oversight of the management of the Library of 
Congress. Today we will focus on the Worklife Services Center 
of the Library of Congress. The Worklife Services Center, a 
division of Human Resources Services, is responsible for many 
critical aspects of employment administration of the Library of 
Congress. The Center is divided into three departments, each 
with many key functions: The Technical Services Team processes 
all personnel requests, such as awards and salary increases; 
the Employee Services Center, which counsels employees on 
retirement issues and provides information on benefits. 
Finally, Leave Administration processes all leave requests and 
manages the leave bank at the Library of Congress.
    On June 30, 2009, the inspector general of the Library of 
Congress released a report assessing the efficiency and overall 
quality of the Worklife Service Center. While the report was 
generally favorable, the inspector general determined several 
areas that required increased oversight in order to function 
more efficiently and accurately. For example, management of the 
leave bank was inaccurate, leading to incorrect leave balances. 
Further, the investigation determined that the Human Resources 
Services computer system is also at risk of fraud or abuse.
    This hearing will satisfy House Rule 11. This rule was 
amended by House Resolution 40, introduced by our colleague 
John Tanner and passed in the House in January of this year. 
The goal of H.Res. 40 is to ensure wise spending of tax dollars 
through oversight hearings aimed at instances of waste, fraud 
or abuse in government agencies.
    It is our aim to eliminate the deficiencies in the Worklife 
Services Center in order to provide more efficient and accurate 
means of managing employees at the Library of Congress. This 
hearing is merely the first step, and I look forward to the 
testimony of the witnesses.
    The Chairman. And I would like to recognize Mr. Capuano for 
any opening statement that he may make.
    That is scary. Mr. Capuano refuses to talk. Now, now, at 
the moment.
    [The information follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. We appreciate our panel, and we thank you for 
coming over. Mr. Karl Schornagel is the inspector general of 
the Library of Congress. His distinguished career has taken him 
to the Commerce and Treasury Departments. And his more than 300 
reports have saved the Federal Government nearly $400 million.
    Dennis Hanratty is the Human Resources Director for the 
Library of Congress, where he has worked for 26 years in 
various capacities. His commitment to the Library and the 
employees of the Library is without question, and he has earned 
many awards and distinctions during his career.
    We thank you gentlemen for appearing. We would ask you that 
you limit your testimony to 5 minutes. I am not strict with 
that but, we should have a relatively short hearing, we don't 
mind if you go over that.
    And I would now like to recognize Mr. Schornagel.
    Mr. Schornagel. Thank you, Chairman Brady.
    The Chairman. Would you pull that mic and push that button?
    Mr. Schornagel. It is pushed. Can you hear me now?
    The Chairman. A little closer.
    Mr. Schornagel. Okay.
    The Chairman. Okay. We got you.

 STATEMENTS OF KARL SCHORNAGEL, INSPECTOR GENERAL, THE LIBRARY 
OF CONGRESS; AND DENNIS HANRATTY, DIRECTOR FOR HUMAN RESOURCES, 
                    THE LIBRARY OF CONGRESS

                  STATEMENT OF KARL SCHORNAGEL

    Mr. Schornagel. I thank you, Chairman Brady.
    We audited WSC with the principal objectives of assessing 
the efficiency and effectiveness of the WCS's activities and 
services; determining whether there are adequate internal 
controls to ensure timeliness, quality and an accuracy; and 
evaluating the WSC's compliance with applicable laws and 
regulations.
    We determined that the WSC had made great strides in 
improving customer service since we last reviewed it in 2003. 
We found that personnel actions were being processed in a 
timely manner. In addition, based on the results of the 
customer service that we performed, we found that the Library 
service and infrastructure units were generally satisfied with 
the level of service provided by the WSC.
    However, there is always a catch. Our audit also found that 
the WSC lacked some important controls to ensure efficient and 
effective operation in the Library's leave programs and to 
detect and prevent the occurrence of fraud and errors.
    I will highlight our three findings next. First, oversight 
of leave administration. There was a high volume of unresolved 
leave errors because error reports from the National Finance 
Center, the organization that processes our payroll, were not 
being utilized to make corrections. Timekeepers were not using 
the reports to resolve leave discrepancies because they had not 
been adequately trained on how to use these reports. If fully 
utilized, the approximately $50,000-a-year cost of the reports 
and unresolved errors could be substantially reduced. Over a 5-
year period, up to $250,000 of Library funds could be put to 
better use by resolving the leave discrepancies in these error 
reports.
    Neither the WSC nor the Library's timekeepers were 
effectively monitoring leave bank awards to ensure that 
recipients receive full leave amounts that were granted; unused 
awarded leave only for approved medical emergencies; and 
returned any unused awarded leave to the leave bank. We found 
28 percent of leave bank participant balances we tested were 
inaccurate. We recommended that the WSC adopt a more active 
oversight role for leave administration.
    Our second finding area was controls for access to key 
human resources IT systems. HRS had not restricted access to 
its automated systems to the extent necessary or established 
controls to effectively monitor the activities of employees 
with wide access privileges. Specifically, master timekeepers 
had unnecessary access rights to the Library's timekeeping 
system to view and adjust leave balances of employees outside 
of their supervision. Some employees had inappropriate access 
rights to critical HRS IT systems because system 
responsibilities had not been appropriately separated. And 
activities of employees who had special access rights to the 
Library's HR management system were unsupervised. As a result, 
opportunities existed for fraud or abuse to occur. Due to these 
missing controls, however, we were unable to test for fraud 
because there was not an audit trail of the transactions that 
had been processed.
    We recommended that HRS implement safeguards to restrict 
the access rights of legitimate users to the specific systems 
and files the users need to perform their work.
    The third area is performance standards for the Worklife 
Services employees. We found that the WSC had not developed 
adequate performance metrics to objectively and adequately 
evaluate the performance of its staff. The standards that were 
used were broad and vague and did not clearly define the 
quality or quantity of work expected from the WSC's employees. 
Consequently, the performance evaluations were highly 
subjective, and it was difficult for HRS supervisors to hold 
employees accountable for their work.
    We recommended that the WSC develop more objective and 
measurable requirements for its employees' performance 
standards.
    The Library's Director For Human Resources concurred with 
our recommendations and has also been very responsive in 
implementing corrective actions. I commend the Director not 
only for his cooperation during this audit, but also for the 
many improvements he has fostered in the Library's human 
resources operation since the beginning of his tenure in 2005.
    Our full report is available on our Web site, on our public 
Web site, as stated in the last paragraph of my written 
testimony. Thank you.
    The Chairman. I thank you.
    [The statement of Mr. Schornagel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. And I would like to welcome Mr. Harper and 
ask him if there is any statement that he would like to make.
    Mr. Harper. Thank you, Mr. Brady, and I certainly 
appreciate that, and I appreciate you calling this hearing. I 
would ask for unanimous consent that an opening statement be 
entered into the record today.
    The Chairman. Without objection.
    Mr. Harper. I would also like to say I will probably have 
to leave to go back to the Judiciary Committee markup.
    The Chairman. We understand. We stated that before you got 
here. We know you are in a pretty important hearing over there.
    Mr. Hanratty.

                  STATEMENT OF DENNIS HANRATTY

    Mr. Hanratty. Yes, Chairman Brady, Ranking Member Lungren 
and members of the committee. Thank you for this opportunity to 
discuss the management of the Worklife Services Center at the 
Library of Congress. I am Dennis Hanratty, Director for Human 
Resources at the Library of Congress. It is a position I have 
held since August of 2005.
    The Library's Worklife Services Center, created in 2004 as 
a part of Human Resources Services, has dedicated staff who 
daily meet the human resources needs of the Library's employees 
and service units. The Center was created largely in response 
to a series of inspector general reviews finding that the 
Library needed to, first of all, strengthen its internal 
controls related to processing and approving certain personnel 
actions; and, two, improve the efficiency and effectiveness of 
our services to the Library's workforce.
    The Center provides one-stop shopping for Library employees 
in areas such as pay and leave administration, personnel 
benefits, employee assistance services, personnel records and 
retirement counseling. We continually work to improve our 
service in these particular areas. In fact, over the last 5 
years, Mr. Chairman, we have enhanced virtually every Center 
activity that serves the employees of the Library of Congress 
actually from before the first day that a new Library employee 
reports to duty, through new-employee orientation, through 
retirement counseling and out-processing.
    This year's audit of the Library's Worklife Services Center 
shows, in my opinion, the positive results that we sought when 
we established the Center in 2004. Among other findings, the 
audit revealed that the average processing time for personnel 
actions was 7 days, and that is a 74 percent improvement over 
the level that the inspector general found in his 2003 audit.
    As part of this year's audit, the inspector general also 
surveyed the Library's service units regarding the Center's 
performance, and they found broad satisfaction, with most 
answers in the 85 to 90 percent satisfaction level. Service 
unit staff reported to the inspector general that the Center 
staff are approachable, they are friendly and professional, 
they are knowledgeable of procedures and regulations, they are 
able to respond and answer questions, and they are willing to 
help to direct a question to the appropriate level if they 
don't know the answer.
    These results conform to the broader 2008 Library employee 
survey, which we conducted in the fall of 2008, which revealed 
staff satisfaction with both our worklife programs and our 
benefits options. Most of the levels in the Library-wide 
employee survey with respect to worklife programs and benefit 
options exceeded the government average.
    As with any organization, there are always opportunities to 
strengthen and improve our services, and that is the spirit in 
which we viewed the inspector general's audit. We welcomed that 
audit, we concurred with the findings, and we appreciated his 
recommendations.
    In response to the specific concerns that the inspector 
general raised last month, we have already enacted four 
specific steps. First of all, we have issued comprehensive 
procedures on the management of the Library's Voluntary Leave 
Bank Program.
    Second, we have promulgated a directive governing the 
security of personally identifiable information. This is an 
issue we have been working on very closely with the Library's 
Office of General Counsel, with the Library's Information 
Technology Services and the service units in general. We take 
the issue of protecting employee personal data very seriously.
    The third thing we have already done is to separate-- based 
on the recommendation of the inspector general, duties in our 
human resources systems.
    And finally, we have already developed for fiscal year 2010 
to put into effect on October 1 performance standards for the 
Center staff that contains standards of timeliness, accuracy 
and quality.
    Now, in addition to the four things we have already done, 
we reported to the inspector general that there were a series 
of other things that we would enact, and we will do each of 
these and have each of these in place by September 30th. First, 
we will train the service unit timekeepers in procedures for 
the Voluntary Leave Bank Program that I mentioned before.
    Second, we will conduct periodic reviews of our time and 
attendance and payroll systems to ensure that leave bank 
donations are being appropriately recorded, and if there are 
leave bank donations to be returned back to the bank, that they 
are done in a timely fashion.
    The third thing that we are going to be doing between now 
and September 30th is to evaluate the master timekeepers' roles 
and responsibilities, and more clearly define their role. The 
inspector general had recommended that we consider using an 
organizational tree feature that is in our time and attendance 
system, and we have already begun consultations with our 
information technology experts to see if that can be done.
    The final thing that we will do between now and September 
30th is to process all appropriate personnel actions through 
the EmpowHR work-in-progress system and develop procedures for 
any actions that we believe cannot appropriately be processed 
through that system.
    Now, finally, in my written testimony I also outlined some 
other significant improvements that we have made, including 
enhancing an error-free interface with our payroll provider, 
the National Finance Center; establishing secure digital 
versions of employee personnel files; and providing one-stop, 
on-site and off-site employee assistance services and 
retirement counseling.
    And I would be happy to answer any questions that the 
committee members my have.
    The Chairman. I thank the gentleman.
    [The statement of Mr. Hanratty follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Schornagel, what would be the cost, both 
in dollars and cents and manpower, to implement your 
recommendations?
    Mr. Schornagel. It would be very minimal, and it would be 
offset by an extremely large margin by the savings that could 
be implemented by not receiving the big error reports. The 
error reports are optional for the Library to receive, and if 
we could cut down on the errors, those reports would be very, 
very minimal, and the cost would be almost nothing.
    So the only thing we are really talking about here is a 
little bit more time in supervision from the managers and some 
training for the employees to process these errors and resolve 
these erroneous transactions that sometimes stay on the books 
for quite some time.
    The Chairman. So we might even save some money.
    Mr. Schornagel. Yeah. Oh, yeah.
    The Chairman. Mr. Hanratty, if an employee is found to act 
fraudulently with respect to documenting their annual leave, 
what is the punishment? What happens to someone for falsifying 
annual leave?
    Mr. Hanratty. If an individual falsifies annual leave, he 
or she could be subject to both administrative penalties at the 
Library, which could result up to dismissal from the agency. We 
would also bring those concerns to the inspector general's 
attention, and he and his staff would make a determination 
whether to refer those issues further for possible criminal 
action.
    The Chairman. Is there a first time, second time?
    Mr. Hanratty. Well, a lot depends on the course of action. 
Yes, I think we probably look at the degree of severity. There 
are a series of standards that we always use in the course of 
determining or recommending to a manager the appropriate level 
of discipline. And so it may depend on the severity of the 
action; it may depend on whether this is a first-time offense. 
There is a series of categories we would look at, and then we 
would make that recommendation.
    The Chairman. I appreciate that.
    Mr. Harper, do you have any questions?
    Mr. Harper. Yes. Thank you, Mr. Chairman.
    First of all, I would like to say how important the Library 
of Congress is to me personally and to this country. And we do 
appreciate the role that you have to fill and continue to do 
that.
    Mr. Hanratty, I would ask you as we look through this, the 
IG report mentioned the leave administration appeared to be one 
of the largest areas of concern, and I know that looking at 57 
employee accounts that were reviewed, 32 had errors. To what do 
you attribute those errors, and how do you plan to improve on 
that or to prevent those in the future?
    Mr. Hanratty. Well, I basically attribute that, Mr. Harper, 
to the fact that we were so focused on getting the job done and 
making sure that the appropriate transactions were recorded in 
the leave systems that that was our principal attention, as 
opposed to focusing on whether the leave donations that had 
been given to an employee were returned back to the bank if, in 
fact, the individual did not need the full spectrum of that 
award to address the medical deficiency.
    We have already identified and put into place a procedure, 
that we have drafted since the inspector general's report, 
which makes it very clear as to what needs to happen to not 
only record the initial contribution for the voluntary leave 
bank contribution, but also to monitor the action subsequent to 
that, to make sure that, in fact, it is used for the 
appropriate purpose. And if there is any leave that is left 
over, we go ahead and recoup that.
    Mr. Harper. Have you shared that new plan with Mr. 
Schornagel?
    Mr. Hanratty. I have not, but I would be happy to, yes.
    Mr. Harper. All right.
    Mr. Hanratty. I would like to mention, though, that 
although clearly the inspector general's report suggested that 
we needed to put some additional controls on the back end of 
the leave bank program, which we have done, and which we will 
train service unit personnel between now and September 30th, we 
do have a number of controls that have been in place for a long 
time on the front end of the process. That is, if we receive, 
for example, a leave bank request, an application from an 
employee, we will first check the database to make sure that 
this employee's leave balance has been exhausted; that is, the 
employee has no annual leave, has no compensatory time, has no 
credit hours and so forth, so that the individual does, in 
fact, face a possible financial hardship of leave without pay 
if a leave bank application is not approved.
    Mr. Harper. Thank you.
    Mr. Hanratty. The second thing we would do then is we would 
require that individual to provide medical documentation 
attesting to the medical incapacitation that is contained in 
the application. We provide that documentation then to our 
Health Services Office, which reviews it and makes a 
determination that, in fact, it is appropriate. And so only 
until we take all of those steps would we, in fact, approve an 
action.
    Mr. Harper. Yes. Thank you very much, Mr. Hanratty.
    Mr. Schornagel, if I may ask how you would you compare the 
Library's Worklife Services Center with other similar Federal 
agencies in terms of how efficient it is, effectiveness, the 
procedures, the accuracy of their information? Would you rate 
the Library as above or below average? How would you categorize 
that?
    Mr. Schornagel. We did not do any formal benchmarking in 
this audit, but from my personal experience of 30 years in the 
Federal Government, I think right now that we are in good 
shape, and probably that the Library's human resources program, 
or at least the portion that we looked at recently, is probably 
certainly above average.
    Mr. Harper. Thank you very much. I yield back the balance 
of my time.
    The Chairman. Thank you, Mr. Harper.
    Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I just heard you say--I just 
want to make sure I hear it right--that you are reasonably 
satisfied with the progress that has been made?
    Mr. Schornagel. Yes. I think the findings and the 
recommendations that we made back in 2003, there were some 
repeated during this audit; for example, the performance plans 
and the leave errors. However, I think Dennis Hanratty has made 
significant progress, and that is certainly borne out in the 
responses that we received from the customer survey that we 
did. In 2003, the customer survey responses were not near as 
good as they are today. And also back in 2003, we found, for 
example, only 16 percent of the personnel actions processed 
were timely, and that is dramatically improved today.
    Mr. Capuano. So they are making progress.
    Mr. Schornagel. They are making good progress.
    Mr. Capuano. They are making progress, and you are happy, 
then I am happy.
    The Chairman. Thank you, Mr. Capuano.
    Thank you, both of you, for coming today. As stated 
earlier, the Library of Congress is a wealth of information for 
all of us. When I first got here, it was whatever you want to 
know, just call over there. If they don't know it, nobody knows 
it. If they don't know it, they will find it out. And we do 
utilize you tremendously. So again, thank you for being here, 
and thank you for your participation, and thank you for the 
great job that you do. We appreciate it.
    The hearing is now adjourned.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
